U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Western Oilfields Supply Company, dba Rain for Rent v. Eugene Scalia,
Secretary of Labor, et al., No. 19-1352
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2020.
The government’s response is now due, after one extension, on August 10, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 8, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1352
WESTERN OILFIELDS SUPPLY COMPANY
EUGENE SCALIA, SECRETARY OF LABOR, ET AL.

BYRON JANSEN WALKER
ROSE LAW FIRM
120 EAST FOURTH STREET
LITTLE ROCK, AR 72201
501-377-0351
BWALKER@ROSELAWFIRM.COM

